REVIEW OF SBA CONTROLS OVER CASH GIFTS




            Report Number: 11-09 

          Date Issued: March 18,2011 

               u.s. Small Business Administration
               Office Inspector General                              Memorandum
       To:     Jonathan I. Carver                                              Date:   March 18, 2011
               Chief Financial Officer

               Jonathan Swain
               Assistant Administrator for Communication
               and Public Liaison

              Winslow Sargeant
              Chief Counsel for Advocacy

              Sara Lipscomb
              General Counsel
              lsi Original Signed
 From:        Peter McClintock
              Deputy Inspector General

Subject:      Review of SBA Controls Over Cash Gifts
              Report No. 11-09

   This report represents the results of our audit of the SBA's controls over cash gifts. SBA has gift
   authority under Sections 4(g), 5(b)(9), 7(k)(2), and 8(b)(1)(G) of the Small Business Act (the
   Act). Employees may solicit and accept gifts on behalf of the SBA after proper approvals,
   including a conflict of interest determination by the SBA's Office of General Counsel (OGC).
   All gifts must be used in a manner consistent with the Act and any terms imposed by the donor.
   Section 4(g)(2) of the Act provides that any gift, devise, or bequest of cash accepted by the
   Administrator shall be held in a separate account l and shall be subject to semi-annual audits by
   the Inspector General who shall report his findings to Congress.

   Our audit objective was to determine whether the SBA was following established procedures for
   soliciting, accepting, holding and utilizing cash gifts. To achieve our audit objective we obtained
   an understanding of laws, regulations, and the SBA's policies and procedures regarding its gift
   authority. We also interviewed selected SBA officials and examined documentation obtained
   from officials in the Offices of Strategic Alliances, Advocacy, and the Chief Financial Officer.
   Lastly, we examined 16 cash gifts that were posted to the Business Assistance Trust Fund (BAT
   Fund) between October 26,2010 and January 7, 2011. These gifts were utilized by the SBA's
   Office of Advocacy (OA) in support of the 30th Anniversary of the Regulatory Flexibility Act of
   1980 and the 2010 Jobs Creation Symposium.



   1   This account is called the Business Assistance Trust Fund (BAT Fund).
                                                                                                   2

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

BACKGROUND

The SBA Procedural Notice 7000-189, Gift Solicitation/Acceptance Procedures dated June 29,
2010 stipulates the approval of cash and in-kind gifts, acceptable sources of gifts, conflict of
interest determinations, and the requirement for certain executed documents for all cash gifts.
In addition, SBA Procedural Notice 2000-677, Restatement ofProcedures for the Business
Assistance Trust Fund (BAT Fund) dated June 18, 2004 stipulates SBA's policy for depositing
cash gifts into, and expending money out of the BAT Fund. This notice also outlines the
procedural steps for depositing a cash gift, expending the BAT Funds and tracking expenditures.

During Fiscal Year 2010 the SBA's OA sponsored two events, and solicited and received
financial support from 16 nonfederal organizations totaling $23,050. The 16 organizations are
listed in Attachment 1: OA Cash Gifts. The cash gifts were posted to the SBA's BAT Fund
between October 26,2010 and January 7,2011.

In a prior audit2 we found that the SBA: had improperly accepted cash gifts from prohibited
sources; had not implemented adequate controls related to conflict of interest determinations; had
not timely obligated funds for requisition expenditures; and had not implemented adequate
record-keeping and accountability procedures. Corrective actions have been implemented by the
SBA.

AUDIT RESULTS

The SBA followed established procedures for soliciting, accepting, holding and utilizing 16 cash
gifts totaling $23,050. Specifically, SBA Procedural Notice 7000-189 includes explicit
procedures regarding the roles and responsibilities of SBA officials for soliciting and accepting
cash gifts. The SBA substantially complied with the procedures stipulated in this notice.
The donors were properly vetted through SBA program offices to ensure no business
relationships existed that would cause a conflict of interest. The SBA's OGC confirmed that no
conflict of interest existed between the SBA and the 16 organizations that donated cash gifts
totaling $23,050. The SBA also deposited cash donations and made the funds available to
the OA for expenditure. Lastly, the SBA expended BAT Funds for authorized purposes in
accordance with the Act and SBA Procedural Notice 2000-677.

At the exit conference, we discussed the results of our audit. We also discussed matters that
could improve the SBA's controls over cash gifts. These matters included: advance planning of
events where cash gifts will be solicited; more specific procedures regarding the use of BAT
Funds for certain expenditures; delegation of authority for certain activities; maintenance of
records and document retention, and updating an outdated procedural notice. We concluded these
matters did not rise to the level of reportable conditions and were not included as a finding in this
report. SBA officials concurred with our recommended improvements.

We appreciate the courtesies and cooperation of the Agency officials during this audit. If you
have any questions concerning this report, please call me at (202) 205-6586, or Jeff Brindle,
Director Information Technology and Financial Management at (202) 205-7490.

2   OIG Report 5-28, Review a/Procedures/or Cash Gifts dated September 30, 2005.
                                                                                                3

ATTACHMENT 1: OA CASH GIFTS


     Name of Donor                  Brief Description                                Gift Amount

1    Aircraft Owners and Pilots     Cash to support the OA Conference for the 30th          $500
     Association                    Anniversary of the Regulatory Flexibility Act
2    American Cable Association     Cash to support the OA Conference for the 30th         $1,000
                                    Anniversary of the Regulatory Flexibility Act
3    American Foundry Society       Cash to support the OA Conference for the 30th          $500
                                    Anniversary of the Regulatory Flexibility Act
4    American Trucking              Cash to support the OA Conference for the 30th          $500
     Association                    Anniversary of the Regulatory Flexibility Act
5    Associated Builders &          Cash to support the OA Conference for the 30th         $1,000
     Contractors, Inc.              Anniversary of the Regulatory Flexibility Act
6    Brick Industry Association     Cash to support the OA Conference for the 30th         $1,000
                                    Anniversary of the Regulatory Flexibility Act
7    Ewing Marion Kauffman          Cash to support the OA Conference for the 30th         $2,000
     Foundation                     Anniversary of the Regulatory Flexibility Act
8    National Automobile Dealers    Cash to support the OA Conference for the 30th          $250
     Association                    Anniversary of the Regulatory Flexibility Act
9    National Mining Association    Cash to support the OA Conference for the 30th         $1,000
                                    Anniversary of the Regulatory Flexibility Act
10   National Roofing Contractors   Cash to support the OA Conference for the 30th         $1,000
     Association                    Anniversary of the Regulatory Flexibility Act
11   National Small Business        Cash to support the OA Conference for the 30th          $500
     Association                    Anniversary of the Regulatory Flexibility Act
12   NFIB Legal Foundation          Cash to support the OA Conference for the 30th         $1,000
                                    Anniversary of the Regulatory Flexibility Act
13   Portland Cement Association    Cash to support the OA Conference for the 30th          $300
                                    Anniversary of the Regulatory Flexibility Act
14   Society for Human Resource     Cash to support the OA Conference for the 30th         $5,000
     Management                     Anniversary of the Regulatory Flexibility Act
15   Specialty Equipment Market     Cash to support the OA Conference for the 30th          $500
     Association                    Anniversary of the Regulatory Flexibility Act
16   VISA, Inc.                     Cash to support the OA Job Creation                    $7,000
                                    Symposium
                                                                             Total        $23,050
